No. 20-6510

TT SeSeSSSSSSSSSSeSse

IN THE SUPREME COURT OF THE UNITED STATES

 

LAWRENCE W. FORD, PETITIONER
v.

ANITA L., BUDDE, RESPONDENT

PROOF OF SERVICE

I, CHRISTINE O’BRIEN, an employee of the law firm of Robison, Sharp, Sullivan and
Brust, do swear or declare on this date, December 3 1, 2020, that I mailed a copy of the WAIVER
submitted electronically for filing with this court in the above captioned case on December 31,
2020 by Therese M. Shanks, Esq., on behalf of Anita L. Budde, Respondent, by depositing an
envelope containing the above document in the United States mail, first class postage prepaid,
addressed to the person whose name and address is listed below:

Mr. Lawrence W. Ford
P.O. Box 358
Fairfield, California 94533

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 31, 2020.

CHRISTINE O’BRIEN
